           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


   SOCIAL SECURITY ADMINISTRATION
    FIELD OFFICES’ MANAGEMENT OF
             ALLEGATIONS

    September 2008   A-13-08-18030




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                            SOCIAL SECURITY
MEMORANDUM

Date:      September 15, 2008                                                       Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Social Security Administration Field Offices’ Management of Allegations
           (A-13-08-18030)


           OBJECTIVE

           Our objective was to assess the Social Security Administration’s (SSA) management of
           allegations we referred to its field offices (FO) for review. Specifically, we evaluated the
           sufficiency and reliability of documentation supporting the FO’s conclusions,
           recommendations, and/or decisions concerning the allegations.

           BACKGROUND
           We conduct and coordinate investigations related to SSA programs and operations.
           Allegations concerning fraud or abuse are frequently made to our Allegation
           Management Division (AMD) using various methods. For example, the Agency’s toll-
           free “hotline” telephone service, mail, and Internet/email are used to report alleged
           fraud or abuse directly to AMD.

           AMD determines an appropriate course of action to resolve the allegation, including
           referring the allegation to one of the Agency’s FOs for further development.
           Development includes, but is not limited to, actions to determine whether allegations
           can be substantiated. SSA policies and procedures provide guidance for the
           appropriate development activities to complete.

           Examples of the types of allegations AMD forwards to the FOs include concealment of
           work, assets, living arrangements, and resources; representative payee misuse; and
           fraudulent Social Security number applications. After reviewing and developing the
           allegation, the FOs are required to respond to AMD with a disposition indicating the
           allegation was substantiated, unsubstantiated or referred to a different FO for
           development. 1

           1
            Program Operations Manual System (POMS), GN 04110.015, Developing Allegation Management
           Division (AMD) Referrals, § B. The specific required FO determinations are (1) allegation unsubstantiated
           – no corrective action needed, (2) allegation substantiated – corrective action taken – no fraud involved,
Page 2 - The Commissioner


We obtained an electronic data extract of FO dispositions. The dispositions pertained
to allegations AMD received from the public from January 1 through May 31, 2007 that
were referred to FOs for further development. For these allegations, the FOs returned
1,572 dispositions to AMD. Dispositions that involved allegations transferred from one
FO to another were not included. Of theses dispositions, 1,042 were unsubstantiated
and 530 were substantiated. We randomly selected and examined 100 dispositions:
50 unsubstantiated and 50 substantiated. We requested the FOs provide us
documentation pertaining to the conclusions, recommendations, and/or decisions
concerning the associated allegations. See Appendix B for our scope and methodology
and Appendix C for our sampling methodology.

RESULTS OF REVIEW
Of 100 items reviewed, we found FOs did not provide sufficient and reliable
documentation to support 36 percent of the dispositions examined. For 64 of the
100 items sampled, we found sufficient and reliable documentation to support the FOs’
conclusions, recommendations, and/or decisions concerning the allegations. However,
for those 36 items for which documentation did not exist, we received written
explanation for 31 dispositions. Of these 31 items, we were able to perform additional
analysis of SSA records to substantiate the disposition of 13. For the remaining
18 items, we could not independently substantiate the disposition for 15 items, and we
questioned the disposition of 3. Furthermore, since the Agency did not provide
documentation or explanations for 5 of the sample items we also question these
dispositions. See Table 1.




(3) allegation substantiated – corrective action taken- fraud is involved (with the date and name of the
Office of Investigations Field Division to which the allegation was referred) or (4) allegation transferred to
SSA field office (with the code of the FO to which the allegation was referred).
Page 3 - The Commissioner


                                    Table 1: FO Dispositions
                                                Analysis of the 100 Dispositions
     Type of Support                                           Could Not
     Provided for 100       Sufficient and      Analysis     Independently     We                   Total
       Dispositions           Reliable2       Substantiate3
                                                              Substantiate4
                                                                            Questioned
    Documentation                 64                                                                    64
                       1
    No Documentation
      Written Explanation                           13                15                3               31

      No Support                                                                        5               5
    Total                         64                13                15                8               100
Note 1: Of the 36 “No Documentation” dispositions, we either could not independently substantiate the
dispositions or questioned the dispositions made by the FOs for 23.
Note 2: The FOs provided various copies of signed forms, written statements, etc., to support the
dispositions.
Note 3: The FOs provided written explanations to support the dispositions made for the associated
allegations. Based on these explanations, we were able to identify actions SSA needed to take regarding
the dispositions. We reviewed information recorded in SSA’s Master Beneficiary Records, Supplemental
Security Record, and/or Representative Payee System pertaining to these actions. We verified actions
were taken as reported (for example, benefits were suspended, overpayments were recorded, etc.).
Note 4: Written explanations from the FOs were the only information available. These dispositions did
not require that SSA take actions that would be reflected in its records and systems.

SUFFICIENT AND RELIABLE DOCUMENTATION SUPPORTING FO DISPOSITIONS
WAS NOT ALWAYS PROVIDED

Sufficient and reliable documentation was not always provided to support dispositions
made by FOs. We found FOs did not provide sufficient and reliable documentation to
support 36 dispositions. FOs were inconsistent in providing us documentation to
indicate actions taken by its staff to develop the allegations, including those actions
taken to determine whether allegations could be substantiated.

Of the 100 dispositions reviewed, we found FOs had sufficient and reliable
documentation to support 64. 2 For example, we reviewed a disposition for an allegation
involving a Supplemental Security Income (SSI) recipient’s work concealment. The FO
provided a copy of a signed statement from the employer that verified the recipient’s
concealed wages. In addition, documentation was provided that indicated the recipient
told FO staff he was not aware of the requirement to report the wages to SSA. Based
on this information, the FO determined the allegation was substantiated and posted a
$4,293 overpayment on the recipient’s record. As of April 8, 2008, SSA had recovered
approximately $1,260 of the overpayment.


2
  For two dispositions reported as unsubstantiated, FOs took action to stop payments to the SSI
recipients. In one instance, the recipient remained in “nonpay” status as of June 2008. For the other
disposition, SSA subsequently terminated benefit payments. AMD plans to discuss the reporting of
pending actions and subsequent events that pertain to unsubstantiated dispositions with appropriate
Agency officials.
Page 4 - The Commissioner


For the remaining 36 dispositions, FOs did not provide sufficient and reliable
documentation on the actions its staff took to develop the allegations. Of the 36, FOs
provided written explanations to support the conclusions, recommendations, and/or
decisions concerning 31 dispositions. For the remaining five items, SSA provided
neither documentation nor written explanations. Of the 31, we determined there was
adequate information in SSA’s records to support 13 dispositions. For the remaining
18 dispositions, we could not independently substantiate the dispositions because of a
lack of sufficient, reliable documentation and/or corroborating evidence in SSA’s
records. Based on our review, we estimate there are approximately 1,052 allegation
dispositions each year that cannot be independently substantiated (see Appendix C).

During our review, FOs did not consistently provide documentation to indicate the
actions taken to develop the allegations. In response to our request, FOs provided
various explanations for not providing us documentation supporting their dispositions.
For example, staff at one FO reported documentation was not created in the
development of the allegation; another FO employee explained documentation could
not be located; and staff at several FOs reported documentation was forwarded to
another location and was no longer available at the FOs.

We were unable to locate SSA policy that required that FO staff retain documentation
supporting dispositions. Agency staff confirmed there was no policy. However, SSA
policy does provide guidance for FOs when obtaining documentation in developing
allegations. For example, in situations involving concealed work activity, policy states,
“It is best to obtain the claimant’s signature on a form such as the SSA-795 (Statement
of Claimant or Other Person) when taking a statement in this situation…other evidence
may include statements provided by co-workers, employers, or bills and receipts
provided by customers or suppliers.” 3

We believe SSA management should be able to verify whether FO staff complied with
policies and procedures for the development and disposition of AMD-referred
allegations. Further, Standards for Internal Control in the Federal Government, states
“Transactions should be promptly recorded to maintain their relevance and value to
management in controlling operations and making decisions.” The guidance also
states, “Internal control and all transactions and other significant events need to be
clearly documented, and the documentation should be readily available for
examination.” 4 The lack of documentation limits management’s ability to determine
whether appropriate actions were taken to resolve the allegation.




3
    POMS, DI 11006.027, Potential Fraud Or Similar Fault (FSF) Situations Involving Work Issues, § B.
4
 See General Accounting Office (now known as the Government Accountability Office),
GAO/AIMD-00-21.3.1, Standards for Internal Controls in the Federal Government, page 15,
November 1999.
Page 5 - The Commissioner


WE QUESTION SOME OF THE FOS’ DISPOSITIONS

In addition to the five dispositions for which no documentation or explanation was
provided, we also question the disposition of three of the items for which SSA provided
explanations. As previously mentioned, the Agency provided written explanations for
31 items. Of this number, 13 dispositions were substantiated by analyzing data in SSA
records. Of the remaining 18 items, we question the Agency’s disposition of 3 because
we believe additional actions could have been taken when SSA was developing these
dispositions.

For example, one SSI recipient was allegedly concealing her living arrangements. The
FO provided a written explanation stating the recipient neither showed up for any
scheduled appointments nor returned any of the forms the Agency requested. Despite
the recipient’s noncompliance, the FO’s disposition was that the allegation was
“unsubstantiated - no action taken.” Relying on the written explanation provided, we
agree the FO followed Agency policy by attempting to contact the recipient. 5 However,
policy also states the FO could have suspended the SSI payments because the
                                         6
recipient failed to provide information.

We informed FO staff we believed the recipient’s SSI payments could have been
suspended because the recipient failed to provide information, and they agreed. The
recipient’s payments were suspended on March 7, 2008 pending an assessment to
determine the recipient’s continued eligibility for SSI payments. Subsequently,
information was provided to the Agency and the suspension of payments ended.

The remaining two dispositions we questioned pertained to allegations involving either
work concealment or concealment of financial resources. Regarding one disposition,
FO staff could have contacted a third party to determine whether payment was made to
the Title II beneficiary who was allegedly self-employed. Lastly, Agency staff could
have attempted to contact other individuals mentioned in the allegation to determine
whether the SSI recipient was married. Although the FOs provided us written
explanations that indicated the two allegations were unsubstantiated, the explanations
did not state how the FOs made these decisions. We believe if additional information
had been obtained, it could have caused the FOs to reach different dispositions for the
allegations. Staff agreed with our observations.

RECORDING ERRORS RESULTED IN MISCLASSIFICATION OF DISPOSITIONS

During our review, we identified two instances where recording errors occurred and
therefore resulted in the misclassification of dispositions. However, we do not question
the Agency’s dispositions in these instances. Of the 100 dispositions reviewed, we
found 2 recording errors that resulted in the FO misclassifying dispositions on the AMD
allegation referral form. One of the dispositions was returned to AMD as

5
    POMS, SI 02301.010, How to Act on Reports, § C.2.
6
    POMS, SI 02301.235, Failure to Provide Information (N20), § A.
Page 6 - The Commissioner


unsubstantiated. However, the documentation provided by the FOs for this disposition
indicated the allegation was substantiated. The remaining disposition was classified as
substantiated; however, it should have been classified as unsubstantiated.

The disposition misclassified as unsubstantiated pertained to incarceration and work
concealment allegations. During our review, the FO provided a written explanation
indicating the allegation of incarceration was substantiated, and the claimant’s benefits
were suspended as a result. FO staff also explained “…employers denied the fact that
… had ever worked for them.” Based on the incarceration allegation results, the
disposition should have been classified as substantiated.

The other disposition that was misclassified involved an allegation of work concealment.
During our review, the FO was unable to provide any supporting documentation for the
disposition. However, upon review of the claimant’s record, we determined that the FO
had in fact, found the allegation to be unsubstantiated. A remark on the beneficiary’s
record indicated the FO sent a Work Activity Report, Form SSA-820 to the beneficiary.
The report was completed and returned to SSA. In the report the beneficiary indicated
he was not working, and his fiancée owned the business in question. In addition, we did
not find any evidence that additional actions were taken regarding the beneficiary.

CONCLUSION AND RECOMMENDATIONS
Of the 100 dispositions we reviewed, SSA did not provide sufficient and reliable
documentation for 36 dispositions, and we performed additional analysis to substantiate
13. For the remaining 23, we could not independently substantiate 15; we questioned
the disposition of 3 others; and there was no supporting documentation for 5.

There were also erroneous disposition codes for two other dispositions that we did not
question. We recommend SSA:

1. Determine whether additional guidance is needed for FOs to consistently document
   activities and actions taken to develop allegations, and retain such documentation.

2. Record the appropriate disposition code on the AMD allegation referral form.

AGENCY COMMENTS

SSA agreed with our recommendations. See Appendix D for the full text of SSA’s
comments.




                                                Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Sampling Methodology
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                        Appendix A

Acronyms

AMD     Allegation Management Division
FO      Field Office
NICMS   National Investigative Case Management System
POMS    Program Operations Manual System
SSA     Social Security Administration
SSI     Supplemental Security Income
                                                                      Appendix B

Scope and Methodology
To accomplish our objective, we:

   Identified and reviewed applicable laws and regulations.
   Identified and reviewed Social Security Administration (SSA) policies and
    procedures related to the management of allegations.
   Reviewed prior Office of the Inspector General reports.
   Coordinated with SSA personnel familiar with the allegation management process.
   Reviewed allegation disposition-related information in SSA’s Master Beneficiary
    Record, Supplemental Security Record, and Representative Payee System.
   Obtained and analyzed an electronic data extract from the Office of Investigations’
    National Investigative Case Management System (NICMS). The data extract
    consisted of dispositions. The dispositions pertained to allegations received by our
    Allegation Management Division (AMD) from the public from January 1 through
    May 31, 2007 that were referred to SSA’s field offices (FO) for further development.
    For the allegations referred, the FOs submitted 1,572 dispositions to AMD.
   Reviewed a random sample of 100 dispositions: 50 substantiated and
    50 unsubstantiated. (See Appendix C for our Sampling Methodology.)
   Requested the FOs provide us documentation pertaining to the conclusions,
    recommendations, and/or decisions concerning the dispositions being reviewed.

We determined the data used in this report were sufficiently reliable given our review
objectives and intended use of the data. The electronic data used in our review were
extracted from NICMS. We assessed the reliability of the electronic data by reviewing
allegations in NICMS for all the data elements needed to meet our objective. We also
traced information from the data extract to information recorded in the Master
Beneficiary Record, Supplemental Security Record, and/or Representative Payee
System. Finally, we conducted a trend analysis on additional months of NICMS data to
verify the reasonableness of our data.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. We conducted our review between October 2007 and February 2008.
The entity reviewed was the Office of the Deputy Commissioner for Operations.
                                                                               Appendix C

Sampling Methodology
We obtained a data extract from the Office of Investigations’ National Investigative
Case Management System. The data extract consisted of dispositions. The
dispositions pertained to allegations received by our Allegation Management Division
(AMD) from the public from January 1 to May 31, 2007 that were referred to Social
Security Administration (SSA) field offices (FO) for further development. Dispositions
that involved allegations transferred from one FO to another were not included. Our
population consisted of 1,572 dispositions.

From the population of dispositions, we identified two sampling frames: (1) dispositions
returned as unsubstantiated and (2) those returned as substantiated. We identified
1,042 unsubstantiated dispositions and 530 substantiated dispositions. We randomly
selected 100 dispositions: 50 from each sampling frame.

The 100 sample dispositions were sorted according to region and FO code and
forwarded to the Office of the Deputy Commissioner for Operations for distribution to
the appropriate FO. We requested copies of the documentation used to support each
of the dispositions being examined. We reviewed the documentation provided by the
FOs, and determined whether the documentation was sufficient and reliable to support
the field offices’ conclusions, recommendations, and/or decisions concerning the
allegations. For dispositions that documentation was not provided, we also performed
analysis to independently substantiate the written explanations provided by the FOs.
For these dispositions, we reviewed information recorded in SSA’s Master Beneficiary
Record, Supplemental Security Record, and/or Representative Payee System
pertaining to these actions. We determined whether actions were taken as reported.
For example, benefits were suspended, overpayments were recorded, etc.

Based on our sample of 100 dispositions, we could not independently substantiate
23 dispositions because of a lack of sufficient, reliable documentation and/or
corroborating evidence in SSA’s records. Projecting these results to the population of
dispositions returned to AMD for the 5-month period, we estimate there were
approximately 438 FO dispositions that could not be independently substantiated.

We projected our results of 438 for the 5 month period and annualized it. We
estimated for the calendar year, there were about 1,052 FO dispositions that could not
be independently substantiated. We annualized our results because our 5-month
period represented historical trends 7 in monthly dispositions. The following table
provides the details of our sample results, statistical projections and annual estimates.


7
 A trend analysis conducted for 8 months (October 2006 through May 2007) of National Investigative
Case Management System data indicated approximately 300 dispositions each month were returned to
AMD.


                                                C-1
  Sample Results Where Dispositions Not Independently Substantiated For The
                    5-Month Period: Jan 1- May 31, 2007
                         Unsubstantiated       Substantiated
                           Allegations          Allegations         Totals
 Population Size                      1, 042                530               1,572
 Sample Size                            50                  50                 100
 Number of allegations
 where documentation was                19                   4                    23
 not retained
         Attribute Projections for Dispositions Not Independently Substantiated
 Point Estimate                        396                  42                    438
 Lower Limit                           278                  15
 Upper Limit                           525                  90
Projections are made at the 90-percent confidence level.

Based on our projections during this 5-month period, we estimate FO dispositions could
not be independently substantiated or the dispositions questioned for approximately
951 unsubstantiated dispositions, and 101 substantiated dispositions, during a given
12-month period.




                                               C-2
                  Appendix D

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      August 29, 2008                                                       Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      David V. Foster /s/
           Executive Counselor to the Commissioner

Subject:   Office of the Inspector General (OIG) Draft Report, “Social Security Administration Field
           Offices’ Management of Allegations” (A-13-08-18030)-- INFORMATION


           We appreciate OIG’s efforts in conducting this review. Attached is our response to the
           recommendations.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.


           Attachment




                                                         D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S DRAFT REPORT,
“SOCIAL SECURITY ADMINISTRATION FIELD OFFICES’ MANAGEMENT OF
ALLEGATIONS” (A-13-08-18030)

Thank you for the opportunity to review and provide comments on this draft report.

Recommendation 1

Determine whether additional guidance is needed for field offices (FOs) to consistently document
activities and actions taken to develop allegations, and retain such documentation.

Comment

We agree. We are updating our Program Operations Manual System (POMS) section
GN 04110.015, Developing Allegation Management Division (AMD) Referrals, to instruct
employees on the proper procedures to develop allegations and document actions taken. We
expect to release the revised section of POMS by October 31, 2008.

Additionally, in October 2007, we produced (with AMD) an Interactive Video Teletraining
session on the AMD referral process. We have a planned training session to take place in fiscal
year 2009.

Recommendation 2

Record the appropriate disposition code on the AMD allegation referral form.

Comment

We agree. As stated in our response to recommendation 1, we will release our revised POMS by
October 31, 2008, and it will include instructions on how to document the AMD allegation
referral form. We will also continue to issue reminders as opportunities arise.




                                              D-2
                                                                     Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Shirley E. Todd, Director, Evaluation Division, (410) 966-9365

   Randy Townsley, Audit Manager, Evaluation Division, (410) 966-1039

Acknowledgments

In addition to those named above:

   Nicole Gordon, Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-13-08-18030.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
